                        U.S. SMALL BUSINESS ADMINISTRATION
                                   OFFICE OF INSPECTOR GENERAL
                                        Washington, DC 20416



                                                                 AUDIT REPORT
                                                       ISSUE DATE: JULY 1, 2003
                                                       REPORT NUMBER: 3-33


To:            Jeffrey Pierson, Associate Administrator
                for the Investment Division


From:          Robert G. Seabrooks, Assistant Inspector      Original Signed – FOIA Ex. 6
               General for Auditing

Subject:       Audit of SBIC Oversight

        Attached is a copy of the subject audit report. The report contains one finding and four
recommendations to the Associate Administrator for the Investment Division. You agreed with
one recommendation and partially agreed with a second, and nonconcurred with two
recommendations. The partial agreement and nonconcurrences will be resolved during the audit
resolution process. As a result of your comments, we modified certain passages in the report.
Your comments have been synopsized in the report and included as an attachment .

       The finding in this report is the conclusion of the Office of Inspector General’s Auditing
Division. The finding and recommendations are subject to your review and corrective action by
your office in accordance with existing Agency procedures for audit follow-up and resolution

        Please provide your management response to the recommendations within 30 days from
the date of this report on the attached SBA Forms 1824, Recommendation Action Sheet. The
SBA Forms 1824 should be sent to:

        Audit Manager
        SBA OIG/Auditing Field Office, Suite 1803
        233 Peachtree Street, NE
        Atlanta, Georgia 30303

       Any questions you may have regarding this report may be directed to Garry Duncan,
Director, Credit Programs Group, at 202.205-7732.

Attachments

cc:     ADA/Capital Access
                                       AUDIT REPORT
                                  AUDIT OF SBIC OVERSIGHT
                                       Washington, DC

                                 AUDIT REPORT NUMBER 3-33


                                              July 1, 2003




The finding in this report is the conclusion of the OIG’s Auditing Division based on testing of SBA
operations. The finding and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. The report may contain
proprietary information subject to the provisions of 18 USC 1905 and must be released to the public or
another agency without permission of the Office of Inspector General.
                                           SUMMARY

        The Small Business Administration (SBA) is authorized by the Small Business
Investment Act to establish a program to stimulate and supplement the flow of equity capital and
long-term loans to small business concerns using Small Business Investment Companies
(SBICs). The SBICs are private investment firms, licensed by SBA, that independently make
their own investment decisions utilizing private capital plus borrowed funds guarantied by SBA.
The borrowed funds are either in the form of debentures for which interest is to be paid semi-
annually and the principal repaid at maturity, or participating securities which are redeemable
preferred equity-type securities with quarterly interest payments (prioritized payments) made
only to the extent of the SBIC’s profits. The redemption period for both types of securities is
generally 10 years. The SBICs typically provide financing to small business concerns in the
form of loans, debt-securities, and equity investments. The program is managed within SBA by
the Investment Division (Division) which is responsible for regulatory and financial oversight
and providing leverage guaranties to over 400 SBICs.

         Our audit objective was to determine whether SBA’s oversight process limited financial
risk as it pertains to the evaluation of each SBIC’s reported financial condition and the
management of financially troubled SBICs. We examined the controls, policies, and procedures
used to assess the financial condition of SBICs and those methods used to limit financial risk to
SBA. The audit showed that the evaluation of each SBIC’s reported financial condition and the
management actions taken to limit risk from financially troubled SBICs needed improvement to
ensure the risk of financial loss is effectively limited for SBA.

   Ø SBA’s ability to limit risk was restricted by the “Forbearance Concept”. This concept
     precludes SBA from considering SBICs as capitally impaired (a financial condition
     occurring when an SBIC’s net realized and unrealized losses exceed its earnings and
     unrealized gains ) for up to 8 years after receiving their first participating securities. As a
     result, the liquidation of capitally impaired SBICs was delayed, resulting in an erosion of
     the value of the SBICs portfolio assets and the unnecessary disbursement of prioritize
     payments. We determined that the forbearance concept:

       o used decision points to implement forbearance which were not supported by analyses
         and, therefore, may be inappropriate,
       o decreased SBA’s potential for recovery of leveraged Federal funds due to the reduced
         value of SBIC assets, and
       o resulted in the unnecessary payment of about $13 million in prioritized payments for
         capitally impaired SBICs that were not transferred to liquidation status timely.

   Ø SBA’s ability to limit risk was also impeded by the fact that existing guidance for the
     operation of the SBIC program, Standard Operating Procedure (SOP) 10 06, had not been
     revised since March 1989. This SOP was no longer adequate because it did not:

       o address current practices and procedures,
       o require an analysis of SBIC financial data to determine the potential for recovery of
         SBIC leverage guarantied by SBA,



                                                 i
       o include procedures to ensure the consistent implementation of restrictive operations,
       o ensure the consistent application of forbearance, and
       o provide a systematic approach for transferring capitally impaired SBICs with
         participating securities to liquidation status and include the use of receiverships to
         effect recovery, when warranted.

         We recommend that the Associate Administrator for the Investment Division improve the
Division’s ability to limit risk by reassessing the appropriateness of forbearance regulations and
obtaining a written opinion from the Office of General Counsel concerning whether SBICs with
participating securities and a condition of capital impairment can be liquidated using
receiverships. Additionally, we recommend that the Associate Administrator revise SOP 10 06
to ensure that: (i) financial analyses include the potential for recovery, (ii) the implementation of
restrictive operations includes consideration of the level of impairment, time periods and types of
remedies to be used, and the applicability of forbearance regulations, (iii) a systematic approach
is used in determining whether to transfer SBICs with participating securities to liquidation to
ensure prioritized interest payments are kept to a minimum, (iv) and that receiverships be
considered, where appropriate and if deemed an acceptable approach by the Office of General
Counsel.

        The Investment Division’s response provided justification for the concept of forbearance,
and agreed: (a) to obtain a written opinion from the Office of General Counsel as to whether
capitally impaired SBICs with participating securities can be liquidated using receiverships; (b)
to provide support for the forbearance periods; and, (c) to revise SOP 10 06. The Division did
not agree to provide support for the forbearance capital impairment decision points nor did the
Division agree with our recommendations concerning restrictive operations.




                                                  ii
                                                     AUDIT REPORT

                                          AUDIT OF SBIC OVERSIGHT
                                               Washington, DC

                                                     Table of Contents



SUMMARY....................................................................................................................... i

INTRODUCTION

          A. Background ........................................................................................................ 1

          B. Objectives and Scope ........................................................................................ 3

          C. Statement of Management Controls .................................................................. 3


     RESULTS OF AUDIT

     Finding and Recommendations

     SBA’s Oversight of the SBIC Program did not
      Limit Financial Loss to the SBIC Program.................................................................4

     APPENDIX

     A- Management Response
     B- Audit Report Distribution
                                        INTRODUCTION

A.     Background

       In an effort to fill the gap between the availability of venture capital and the needs
of small businesses in start-up and growth situations, Congress created the Small
Business Investment Company Program in 1958. The Program uses SBA licensed Small
Business Investment Companies (SBICs) which are private investment firms that
independently make investment decisions using their own private capital plus SBA
guarantied borrowed funds.

         The borrowed funds are in the form of: (i) 10- year debentures requiring semi-
annual interest payments; or (ii) redeemable preferred, equity type participating securities
requiring quarterly prioritized interest payments if the SBIC is profitable. SBA is
obligated to make prioritized payments on the behalf of the SBIC to the company’s
private investors until such time the SBIC becomes profitable. SBA expects to be
reimbursed by the SBIC for any prioritized payments made under its guaranty over the
life of the participating security.

        The SBIC program is administered by SBA’s Investment Division (Division), an
activity reporting to the Associate Deputy Administrator for Capital Access. One of the
primary responsibilities of the Division is to assess the financial health of SBICs. An
element of the financial assessment is the SBIC’s impairment ratio. This ratio represents
the financial losses incurred by the SBIC as expressed as a percentage of its regulatory
capital. Capitally impaired SBICs generally represent a greater risk for loss within the
SBIC portfolio. Title 13 Code of Federal Regulations (CFR), Part 107.1830, establishes
maximum impairment ceilings for SBICs based on their percentages of equity
investments and outstanding leverage expressed as a ratio. This ratio is referred to as the
maximum capital permissible impairment (MPCI) ratio. At the point the SBIC exceeds
its MPCI, it is considered capitally impaired and could be subject to actions by SBA to
protect the government’s interest.

        The Small Business Equity Enhancement Act of 1992 drastically changed the
SBIC program by creating participating security leverage. This increased the amount of
available leverage to individual SBICs and the minimum private capital required. Since
the implementation of the Act, the program has expanded significantly. The number of
licensees has risen from 280 in fiscal year (FY) 1994 to 428 at the end of FY 2001.
Private capital increased from $2.9 to $11.5 billion and outstanding leverage held by
SBICs increased from $805 million to $4 billion by the end of FY 2001, as shown in the
following graph.




                                              1
                                    Program Funding

                               12

         Billions of Dollars
                               10
                                8
                                                                       Private Capital
                                6
                                                                       SBA Leverage
                                4
                                2
                                0
                                  94




                                  96




                                  00
                                  95




                                  98

                                  99
                                  97




                                  01
                                FY

                               FY




                               FY

                               FY
                               FY

                               FY




                               FY

                               FY
        In FY 1993, ID program officials, with input from the private venture capital
sector, established “forbearance periods” for the SBIC program in 13 CFR, Part 107.1820
and 1850. According to Division personnel, the forbearance concept was based on the
idea of “patient money” – SBA needed to wait until the portfolios of the SBICs matured
in order to receive repayment of guarantied debt and not take punitive action against
financially troubled SBICs. The forbearance periods preclude SBA from considering an
SBIC as being capitally impaired for:

   - the SBIC’s first fiscal year,
   - impairment percentages below 50 percent,
   - the first 48 months after the issuance of the first participating security as long as the
     impairment percentage was below 85 percent,
   - the first 60 months after issuance of the first participating security as long as the
     impairment percentage was below 85 percent and two thirds (cost basis) of the
     SBIC’s portfolio was composed of startups, and
   - the first 8 years after issuance of the first participating security as long as the
     impairment percentage exceeded 100 percent of regulatory capital.

        The Small Business Investment Act (Revision 10), Section 308(g)(2)C requires
the Administrator to report on efforts taken to maximize the recoupment of funds incident
to the administration of the SBIC program. The OMB Circular A-129 (Revised), Policies
for Federal Credit Programs and Non-Tax Receivables, requires agencies to implement
management practices to ensure the goals of credit programs are met while properly
identifying and controlling cost. Such policies and procedures must be designed to
include the minimizing of unintended costs to the Government. Additionally, OMB
Circular A-123 (Revised), Management Controls, states that management accountability
requires managers to be responsible for controlling cost and mitigating adverse aspects of
agency operations.




                                              2
B. Objectives & Scope

        Our audit objective was to determine whether SBA’s oversight process limited
financial risk as it pertains to the evaluation of each SBIC’s reported financial condition
and the management of financially troubled SBICs.

        We identified 23 SBICs that exceeded their MPCI ratios for two or more
consecutive quarters during the period April 30, 1994, through March 31, 2002, to assess
the controls and procedures used by the ID to monitor the program and its methods for
limiting financial risk to SBA. Of the 23 SBICs, 18 had participating securities and 5 had
debentures. As of March 31, 2002, outstanding leverage for these SBICs totaled
approximately $449 million with accrued prioritized payments of about $60.5 million.

         We examined the processes used to collect and evaluate financial data, conducted
tests to determine the accuracy, completeness, and timeliness of the data, and reviewed
the financial analysis process for thoroughness. We evaluated and tested procedures
taken by the Division to mitigate the risk of loss after an SBIC was identified as having
above average risk. We also interviewed appropriate management officials and staff
within the Division, the Office of General Counsel, and the President of the National
Association of Small Business Investment Companies.

       Audit fieldwork was performed from October 2001 through August 2002. The
audit was conducted in accordance with generally accepted Government Audit Standards.

C.      Statement on Management Controls

        Our assessment of management controls was limited to those applicable to the
Division’s ability to assess reported financial information and to limit financial risk
resulting from financially troubled SBICs. A study and evaluation made for the limited
purpose described above would not disclose all material weaknesses in the Division’s
management controls. For the areas audited, we identified material weaknesses in
management controls that impacted the Division’s ability to identify and limit the amount
of financial risk for SBICs that had exceeded their MPCI. The more significant
weaknesses identified were the lack of: (a) approved current operating procedures
addressing SBIC oversight practices and procedures; (b) financial analysis addressing
each SBIC’s potential for repayment of SBA guarantied leverage;
(c) consistent implementation of restricted operations, (d) criteria for determining when
to transfer financially troubled SBICs with participating securities to liquidation status;
and (e) forbearance requirements and documentation of decision points used to
implement it. During the audit, management took action to improve some of the
aforementioned weaknesses, but additional corrective actions are necessary. The
weaknesses and their impact are discussed in the finding.




                                              3
                                  RESULTS OF AUDIT

Finding SBA’s Oversight of the SBIC Program did not Limit Financial Loss to the
        SBIC Program

         SBA’s oversight process did not ensure that the Agency limited financial risk in
the SBIC program. The Small Business Investment Act and Office of Manage ment and
Budget (OMB) Circulars require SBA to maximize the recoupment of funds related to the
SBIC program and to control and minimize unintended program costs. These goals were
not accomplished because SBA had established a forbearance regulation which limited
actions that could be taken to liquidate capitally impaired SBICs with participating
securities. Additionally, SBA did not meet the OMB goals because existing procedures
were over 13 years old, predated the initiation of the participating security program, and
did not address: (i) analysis of potential for recovery; (ii) use of restricted operations; and
(iii) liquidation of SBICs with participating securities. These weaknesses resulted in up
to $13 million in additional prioritized interest payments and reduced SBA’s potential for
recovery of leveraged Federal funds.

Concept of Forbearance

        The Division’s ability to oversee the program and to limit risk was hampered by
forbearance regulations. The forbearance regulations included decision points for which
management could not provide supporting analysis, allowed SBIC assets to decline in
value thereby reducing SBA’s potential for recovery, and resulted in the unnecessary
payment of additional prioritized payments.

Support for decision points

        Program officials could not provide any justification to support the establishment
of forbearance decision points. No analyses were provided to support the forbearance
periods (i.e., 1, 4, 5, and 8 years) or the impairment percentage ceilings of 85 and 100
percent. Also, management could not explain why SBA was not required to forbear
between the 85 percent impairment percentage and the 100 percent impairment
percentage. Without supporting analyses, there is no assurance that the decision points
were appropriate. Both the time frames and the capital impairment percentages may be
inappropriately restricting the Division’s ability to protect the government’s interest.

Declining Assets

        Asset value continued to decline during the time our sample of SBICs remained
impaired. To measure the amount of the erosion to the SBIC’s assets, we identified all
SBICs that had exceeded their impairment ratio for 6 months or more during our review
period. From this 6- month point, we analyzed the changes in both the fair market value
and cost basis of assets through March 31, 2002. We determined that the fair market
value of total assets held by the 23 sampled SBICs eroded by approximately $51 million
and the cost basis of portfolio investments decreased by $26 million. These decreases



                                               4
were attributable to sales, charge-offs, re-valuations of the licensees’ portfolio holdings,
and operating costs of the SBICs. The reductions are shown in the following table:


                                        Declining Assets

                       $550                                                    Total Assets
          (Millions)


                       $500                                                    Cost Basis
                                                                               Decrease
                       $450

                       $400
                              1     2       3       4      5    6

                                  (Elapsed Quarters)



        Four of the 23 SBICs reviewed had net increases to total assets totaling $21.4
million while impaired. The increases were due to additional contributed capital or SBA
leverage. If these four SBICs were excluded from the sample, the decrease in the fair
market value of total assets for the other 19 SBICs would be $72.5 million.

Prioritized Payments

         SBA paid about $13 million in unnecessary prioritized payments due to untimely
liquidation actions. To measure the increase to prioritized payments for the 18 SBICs
with participating securities in our sample, we identified all SBICs that exceeded their
MPCI for at least 6 consecutive months. We then calculated the amount of additional
prioritized payments made by SBA from the end of the initial 6- month impairment period
through March 31, 2002. The Small Business Investment Act establishes the obligation
of SBA to make quarterly interest payments on behalf of the SBIC until such time that a
profit is realized. If a profit is not realized, the obligation for an SBIC to repay
prioritized payments to SBA is extinguished and may cause taxpayers to suffer a loss due
to the inability of the SBIC to repay SBA.

Changes Pertaining to Forbearance

        In [FOIA Ex. 5] 2002, the ID [                    FOIA Ex. 5
] transfer to liquidation status seven capitally impaired SBICs with participating
securities. All seven SBICs were at 100 percent impairment and, as such, were still
within their 8- year forbearance period. According to management officials in both the
Division and OGC, a decision was made to place these capitally impaired SBICs with
participating securities into liquidation status in July 2002 and to allow them to self-
liquidate (existing management remains in place and performs an orderly disposition of
the SBIC’s assets). They further stated that self- liquidation does not entail the
appointment of a receivership or transfer of the SBIC’s assets to SBA and, as such, would
not be considered to be in conflict with the forbearance requirement. By transferring
these SBICs to liquidation status, the Division purchased the outstanding participating
securities from the public market and, thereby, ended future prioritized payments.


                                                5
        This new practice may eliminate unnecessary prioritized payments and initiate
recovery actions sooner, but it is not codified in the CFR or a SOP and, therefore, may
not be continued on a routine basis. Also, because self- liquidating SBICs are not
routinely exa mined by SBA, inappropriate actions by the SBIC’s management may not
be identified.

Inadequate Procedures

         Existing procedures were outdated and did not effectively minimize program risk.
The Division had not revised its Standard Operating Procedures (SOP) 10 06, Oversight
and Regulation of SBICs, since March 1989, over 13 years ago. The SOP was issued
prior to the establishment of the participating securities program and, as such, did not
cover current management practices and program issues. In 1998, a revised SOP was
drafted but was not finalized as of January 2003. During the 13-year period, management
officials issued Technical Notes to serve as interim guidance. Neither of these documents
adequately addressed: (i) analysis of potential recovery; (ii) restrictive operations;
(iii) specific criteria for transferring capitally impaired SBICs with participating securities
to liquidation status; and (iv) applicability of the forbearance rules.

Analyses of the potential for repayment

        Existing financial analyses did not require analysts to identify the SBIC’s
potential for repayment of outstanding leverage on a continuing basis. Currently, the
Division conducts financial analyses quarterly and annually based on data submitted by
the SBICs. The purpose of the annual analyses is to assess SBA’s level of risk. The
results are document ed in the annual review process and are also contained in the
Division’s monthly Risk Assessment Profile Report (RAP), formerly known as the Watch
List. The RAP is used by the Division to measure the level of risk and to monitor
progress of SBICs that were either approaching capital impairment or were actually
capitally impaired.

        While the analyses may have cited increasing impair ment ratios and erosion of
portfolio values, they fell short of linking SBIC’s financial condition to the SBIC’s ability
to repay indebtedness guarantied by SBA. Further, the analysis did not provide a
recommended course of action for SBA to take, such as transferring the SBIC to
liquidation status. Financial analyses for capitally impaired licensees should focus on the
probability or likelihood that the SBIC can repay both its outstanding leverage and
accrued prioritized payments.

       For 10 of the 23 SBICs in our sample (43 percent), total SBA guarantied debt
exceeded the fair market value of the assets by nearly $12 million at the date they initially
became capitally impaired. As of March 31, 2002, SBA guarantied debt exceeded the
fair market value of the assets by about $61 million for 15 of 23 (65 percent) sampled
SBICs. Such an analysis demonstrates the widening gap between the SBICs’outstanding
debt and its ability to repay debt through the disposition or sale of existing portfolios.



                                               6
The following chart shows the widening of this gap during the time our sample SBICs
were impaired.


                                              Leverage Exceeded Total Assets


                 (Millions of Dollars)
                                         $520.0                                                           $509.8
                                                     $499.5
                                         $500.0                          $487.6

                                         $480.0
                                         $460.0                                             $448.5

                                         $440.0
                                         $420.0
                                         $400.0
                                                  Total Assets              Total         Total Assets      Total
                                                  (Initial Impair.)      Leverage           (3/31/02)    Leverage
                                                                      (Initial Impair.)                   (3/31/02)




Implementation of Restrictive Operations

        The Division was not consistent in its implementation of restrictive operations
due to the absence of specific operating procedures. The concept of restrictive operations
is not addressed in SOP 10 06, but 13 CFR, Part 107.1820(e), describes 11 events that
may result in the implementation of restricted operations. Capital impairment is one of
the events that may result in the implementation of restrictive operations. CFR, Part
107.1820(f), describes those remedies that SBA can avail itself of when a restrictive
operation condition occurs. The regulation allows SBA to:

    Ø   restrict future investments and distributions,
    Ø   require all commitments to be funded,
    Ø   re-determine approved management expenses, and
    Ø   reserve the right to deny additional leverage to the SBIC.

         While the CFR describes the conditions upon which restrictive operations may be
used, it does not indicate: (i) what level of impairment is appropriate for placing SBICs
into restrictive operations; (ii) the length of time SBICs should remain in restrictive
operations status; and, (iii) whether some remedies are more appropriate than others for
certain financial or regulatory violations. The CFR is unclear as to whether forbearance
precludes the use of restrictive operations for capitally impaired SBICs.

         Our review disclosed that only 6 of 18 capitally impaired SBICs with
participating securities were placed in restrictive operations status as of March 2002.
(The remaining 5 SBICs had debenture funding and, as such, were not subject to
restricted operations.) Management discretion was cited as the reason for not placing the
other 12 SBICs with participating securities into restricted operations. And, at least one
area manager cited forbearance as the reason for not placing impaired SBICs into
restricted operations. Documentation could not be provided for the rationale used in


                                                                          7
determining when SBICs were to be placed in restrictive operations. In the absence of
restrictive operations, the risk of financial loss is even greater for impaired SBICs.

 Transfer to Liquidation Status

        The existing guidance provided regulatory and financial reasons for transferring
capitally impaired SBICs to liquidation status but did not provide a systematic approach
for making the determination. The reasons provided in the guidance for transfer to
liquidation included significant violations of the regulations, fraud, uncured conflicts of
interest, capital impairment, and bankruptcy. The existing guidance stated that once a
“determination” was made concerning the SBIC’s incapability or unwillingness to
resolve the problem, a memorandum for a pre- liquidation conference was to be prepared.
The memorandum and pertinent facts about the case were to be revie wed by the
conference attendees who could recommend transfer to liquidation status.

         The existing guidance provided no specific instructions as to how the
determination was to be made nor did it identify how to weigh certain elements such as:
(i) level of impairment (i.e., extreme); (ii) length of time impaired; (iii) amount of
prioritized payments accrued as compared to regulatory capital; and (iv) severity of
regulatory violations. The lack of guidance addressing these areas had not been a
problem because prior to our audit the only SBICs to be transferred to liquidation status
were those funded with debentures or suspected of fraudulent acts. No SBICs with
participating securities had been transferred to liquidation status as a result of its capital
impairment because the 8-year forbearance period precluded considering the SBIC as
being capitally impaired. As a result, the Division had not taken actions, prior to the start
of our audit, to remove poorly performing SBICs with participating securities from the
program.

Applicability of Forbearance

         Existing operating procedures did not address the use of forbearance periods in
monitoring SBICs with participating securities. The term forbearance is not defined in
any guidance, but is applied as a set period of time after the first issuance of participating
securities during which SBA may not consider an SBIC as capitally impaired. The
concept of forbearance is not addressed in SOP 10 06. Forbearance is of paramount
importance because it allows high risk SBICs to continue to operate without any
restrictions. Consequently, SBA may not be able to enforce any of the remedies outlined
in the CFR if it cannot consider an SBIC as impaired.

        Our review disclosed that management’s application of the forbearance period
was not consistent with CFR guidance. Management officials cited the forbearance
period of 8 years following the SBIC’s first issuance of participating securities, as
discussed in Part 107.1830 of the CFR, as the primary reason for not transferring
capitally impaired SBICs to liquidation status. To be eligible for the 8- year forbearance
period, the CFR states that the SBIC must be at least 100 percent capitally impaired. We
identified five capitally impaired SBICs that did not meet the 8-year forbearance
requirements. SBA could have transferred the following companies to liquidation status


                                               8
during the period of time indicated in the following chart--thereby limiting SBA’s
financial risk from loss.

                                  Date             Actual                   Period when Action
License                  MPCI1 licensed            Impairment %             could have been taken
[


FOIA Ex.

                                                                                             ]

Three of these SBICs were subsequently transferred to liquidation status and allowed to
self- liquidate.

Summary of Finding

         SBA’s ability to oversee the SBIC program and limit risk was hampered by
forbearance rules and outdated procedures. The forbearance rules used unsupported
decision points, reduced SBA’s potential for recovery, and resulted in unnecessary
prioritized payments. Additionally, existing guidance did not: (i) address the potential for
recovery in the Division’s financial analysis, (ii) ensure the consistent implementation of
restrictive operations, (iii) ensure the consistent application of the forbearance rules, and
(iv) provide a systematic approach for transferring SBICs to liquidations. As a result,
unnecessary costs have been and will continue to be incurred unless corrective action is
implemented. Our following recommendations address each of these weaknesses.

RECOMMENDATIONS

        We recommend that the Associate Administrator for the Investment Division take
the following actions to improve the Division’s ability to limit risk:

1.A.      Provide documented analysis justifying the need for the: (i) concept of
          forbearance, (ii) forbearance periods, and (iii) capital impairment percentages.

1.B.      Obtain a written opinion from the Office of General Counsel concerning whether
          SBICs with participating securities can be liquidated using receiverships due to a
          condition of capital impairment.

1.C.      Revise SOP 10 06, Oversight and Regulation of SBICs, to ensure it includes
          requirements to:
             • perform and document quarterly risk assessments for capitally impaired
                 SBICs,
             • include an analysis of potential for repayment of outstanding leverage in
                 its risk assessments,

1
 Maximum permissible impairment percentage – the point at which an SBIC is considered as capitally
impaired.


                                                  9
           •   provide a recommended course of action in its risk assessments,
           •   implement restrictive operations consistently,
           •   implement the forbearance regulations consistently, and
           •   determine what criteria should be used to recommend an SBIC transferred
               to liquidation.

1.D.   Revise SOP 10 06 to ensure that the implementation of restrictive operations
       addresses:
          • appropriate levels of impairment requiring restrictive operations,
          • time periods SBICs should remain in restrictive operations,
          • appropriateness of remedies or combination of remedies that should be
              used and under what circumstances, and
          • whether forbearance regulations preclude the application of restrictive
              operations.

Management Comments in Response to Recommendation 1.A

        The Associate Administrator’s response stated that the concept of forbearance is
inherent to the structure of a private equity investing program and provided a detailed
discussion of the venture fund investment cycles, average number of years before capital
is returned to investors, the linkage between rate of return of capital to the growth and
decline of the stock market, and other significant venture capital concepts. The response
added that the regulations were adopted only after publication of proposed regulations
and review of the subsequent comments.

        The Associate Administrator also agreed to provide documentation supporting the
forbearance periods. His response elaborates on this issue by stating that the average exit
timeframe for portfolio concern is 4-6 years according to the venture capital industry and
the response discusses in detail the historical rates of return on paid-in capital, citing the
average rate of return as 8 years (1985 - 1989), 6 years (1990 to 1994), and 3 years
(1995-1999), respectively, during the 12-year period prior to 2000. He further stated that
given the current market conditions, it is likely to take 1998-2001 funds anywhere from
5-10 years to return contributed capital to investors.

        Concerning justification for the capital impairment decision points, the Deputy
Associate Administrator referred the OIG to the legislative history and reiterated the
point that the forbearance period and percentages were adopted after an extensive public
comment period. He added that although the Investment Division is open to suggestions
for improving the program, it is not prepared to recommend specific changes to the
forbearance concept at this time.




                                              10
Evaluation of Management’s Comments to Recommendation 1.A

         The Associate Administrator partially agreed with our recommendation. His
response adequately provided the logic for the concept of forbearance and stated that he
would provide documentation supporting the forbearance periods. We reviewed the
legislative and regulatory history and asked management during the audit for support for
the forbearance percentages. We did not see and were not provided support for the
forbearance percentages.

        Additionally, the response does not explain the need to codify the forbearance
concept in the CFR with specific forbearance periods and capital impairment levels. The
information provided by the Associate Administrator shows that the period needed to exit
from an investment and to obtain a return on the investment varies by vintage year.
Given this fact, any time period included in the CFR will ultimately result in SBA
forbearing either for too long a period or for too short a period. Also, the concept of
“patie nt money” assumes that a positive return sufficient in size to repay SBA in full will
eventually be realized. This concept must be matched with a reasonable analysis of the
SBIC’s potential for repayment of the SBA guarantied funds. The audit found that this
type of analysis either was not done or, if done, was not documented and, consequently,
SBA was being “patient” past the point where full recovery was likely.

Management Comments in Response to Recommendation 1.B

       The Associate Administrator agreed to request an opinion from the Office of
General Counsel. He stated that the Division has operated under the assumption that it is
precluded from imposing the remedies available for Extreme Capital Impairment for a
period of 8 years in accordance with the CFR and, unless advised otherwise by OGC, will
continue to believe that SBA has no right to seek a receivership or to otherwise replace
SBIC management for capital impairment as long as the SBIC is within its first 8 years.

         The Associate Administrator stated that additional factors to be considered in
liquidation transfers included level of impairment, the age of the fund, its distribution
history, and the type of investing. This notwithstanding, he stated that the OIG had not
given full consideration to (i) the unique equity type structure of the SBIC program
(patient capital), (ii) the effect of a transfer to liquidation on portfolio company value, and
(iii) other funds’ favorable conditions to be considered (e.g., distributions to SBA,
reserves of co- investors) in deciding whether to transfer SBICs to liquidation.

         Additionally, the Associate Administrator stated that a transfer to liquidation by
itself imposes no additional restrictions beyond restrictive operation status and that the
transfers add no value to SBIC portfolio companies. He also stated that the funding of
prioritized payments will continue—unless there is significant and permanent diminution
of portfolio value that makes recovery of the SBA’s financial exposure unlikely, based on
thorough analysis.




                                              11
Evaluation of Management’s Comments for Recommendation 1.B

        The Associate Administrator generally agreed with the recommendation although
he expressed concerns regarding the transfer of participating securities to liquidation
status. His comments seem to agree that a thorough financial analysis addressing the
recovery of SBA’s financial exposure is warranted. The question seems to be when this
analysis should be done. As stated in the audit, we did not find evidence that this type of
financial analysis was routinely done. His comments concerning the effectiveness of a
transfer to liquidation status imply that the SBIC would be allowed to self liquidate or
that existing SBIC management would otherwise be allowed to remain in place. Our
position is that if the SBIC does not show a potential for recovery of SBA’s current and
future financial exposure, then it should be transferred to liquidation status and a
receivership should be sought. This would have a threefold effect: (a) it would allow
SBA to maximize recovery through an orderly liquidation of the portfolio concerns; (b) it
would allow SBA access to the SBIC’s books and records for identification of improper
activity; and, (c) it would stop the payment of prioritized payments and, therefore, reduce
SBA’s losses.

Management Comments in Response to Recommendation 1.C

        The Associate Administrator stated that the Investment Division generally
concurs with this recommendation, although it takes exception to the comment regarding
consistency. He further stated that an SOP that had been drafted will need to be revised
to reflect recent developments and initiatives within the Investment Division. The
Division will begin the process of revising the SOP before the end of FY 03. The Deputy
Associate Administrator stated that the SOP is expected to provide a more detailed
explanation of these requirements.

Evaluation of Management’s Comments to Recommendation 1.C

        The Associate Administrator agreed to revise the SOP. However, we will wait to
see the revised SOP before we can determine if he fully concurred with our
recommendation. While we applaud the decision to update the SOP to reflect current
Division goals, initiatives, and practices, we believe the requirements listed in the
recommendation are necessary to limit financial risk to SBA.

Management’s Comments in Response to Recommendation 1.D

         The Associate Administrator stated that the Division should begin the process of
revising the SOP before the end of FY 03. The new risk assessment model will
incorporate the factors believed relevant in determining the financial condition of an
SBIC and thus assisting in an appropriate course of action. The Deputy Associate
Administrator stated that the regulations address the levels of impairment that allow for
restrictive operations and that this will be referenced in the SOP. Further, he stated that
the SOP will provide detailed guidance concerning how long an SBIC should remain in
restrictive operations, but the SOP will not be a substitute for the detailed, comprehensive
analysis that an analyst would provide. Concerning the appropriateness of remedies, he


                                             12
stated that the SOP cannot confer new or additional remedies other than the ones
permitted by statute or regulation. Finally, he stated that the Division does not believe
that the forbearance regulations preclude the imposition of restricted operations.

Evaluation of Management’s Comments to Recommendation 1.D

        We consider the Associate Administrator’s response to be a partial concurrence.
Although he agreed to revise the SOP, his response indicates that he does not agree with
some of the bulleted points included in the recommendation. As stated in the report, the
Division was not consistent in its implementation of restrictive operations due to the
absence of specific operating procedures. We believe the recommended requirements
will promote consistency which, in turn, will help SBA better manage the program risk.




                                             13
                                                                                                    APPENDIX A

                                                U.S. SMALL B USINESS ADMINISTRATION
                                                      WASHINGTON, D.C. 20416


DATE:            April 22, 2003

TO:              Robert G. Seabrooks
                 Assistant Inspector General for Auditing

THRU:            Ronald E. Bew       Original Signed FOIA Ex. 6
                 Associate Deputy Administrator
                  for Capital Access

FROM:            Jeffrey D. Pierson    Original Signed FOIA Ex. 6
                 Associate Administrator
                  for Investment

SUBJECT:         Draft Report – Audit of SBIC Oversight

  INTRODUCTION

  The Investment Division (ID) of the U.S. Small Business Administration (SBA) appreciates the continuing
  efforts of the Office of the Inspector General (OIG) to help identify areas of improvement in SBA’s regulatory
  and financial oversight of the Small Business Investment Company (SBIC) program.

  As the OIG is aware, SBICs are privately-owned and managed venture capital funds, where both the SBA and
  private investors may serve as limited partners (as opposed to lenders). SBICs are on the front line of our battle
  to restore our economy to its maximum strength. With over 10,800 companies in 442 funds supported by $11.7
  billion in private venture capital and another $4.7 billion in SBA matching investments at the end of FY 02, the
  SBIC program has a unique formula for the federal government to help small businesses survive and grow.

  In the program’s history, SBICs have invested over $35 billion in small businesses in more than 130,000
  separate transactions. These SBIC-financed businesses have paid billions in taxes and generated millions of
  jobs, while promoting innovation and efficiency in the U.S. economy.

  Under the program, the government does not make direct investments – professional private venture funds do.
  The government does not select industries to invest in. SBIC fund managers decide to invest in entrepreneurial
  companies based on disciplined, acceptable return expectations and a steady focus on profit maximization.


         SBICs are part of a legacy of early investing in some of the world’s most successful
         companies – Callaway Golf, Outback Steakhouse, Staples, Federal Express, Apple Computer,
         America Online, and Intel, to name a few.

  SBICs are the building blocks of future economic prosperity. Of course, the SBIC program, just like the rest of
  the venture capital industry, runs in cycles and is structured to assume substantial risk in the interest of
                                                            1
supporting U.S. small businesses. SBA’s challenge is to manage the SBIC program in a way that balances the
risks of long-term venture investing with the huge potential rewards to businesses, customers and communities
throughout the United States.

VENTURE CAPITAL INDUSTRY AND THE SBIC PROGRAM

In 1958, Congress passed legislation creating the SBIC program. The SBIC program literally created the
venture capital industry – a new asset class – to bridge the gap between entrepreneurs, looking to start or grow
their businesses, and traditional financing. Forty- five years later, the program’s mission remains the same:

      Our mission is to encourage economic growth, innovation, and entrepreneurship by licensing
      and investing in privately-owned and managed venture capital funds, for the benefit of
      America’s small businesses and the customers and communities they serve.
We accomplish our mission by:

   •   Licensing qualified fund managers with exceptional deal flow
   •   Encouraging the participation of major private investors
   •   Building multiple lines of defense to manage risk to taxpayers
   •   Communicating understandable program ground rules
   •   Offering funds time to develop results, given venture investing cycles (“forbearance”)
   •   Focusing on profit maximization as the key to success

A common misperception about the SBIC program is that it is a credit program. While not a true venture
capital program in the sense that all limited partners’ commitments are at risk (the federal government has the
ability to limit its financial exposure in certain adverse circumstances), it is nonetheless structured as a unique
public-private investment program. Typical tools and methods for limiting “credit risk” to taxpayers –
essentially by monitoring interest payments – are thus not entirely suitable for the SBIC portfolio.

From a venture investment standpoint, both the federal government and private equity investors put money into
SBICs with the understanding that, under a worst case, there could be a total loss of their investment.
Sophisticated private investors are willing to assume that risk based on their confidence in SBIC management
teams to produce acceptable returns. The government assumes the risk of total loss of investment based on (a)
the expectation that SBIC investments will contribute significantly to U.S. economic productivity, job growth,
and innovation; and (b) its sharing in the same prospective returns as private investors.

Although the government does not invest money directly in small businesses, the SBIC program – similar to the
housing industry’s FannieMae – ensures that funds are available to small businesses by providing comparatively
inexpensive capital to professional privately managed venture funds that provide equity capital, long-term
loans, and debt-security investments, as illustrated in Exhibit 1.




                                                         2
In addition, as shown in Exhibit 1, the SBIC program harnesses
private capital alongside its SBA-guarantied funds, providing a                       Exhibit 1 – SBIC Program:
much larger base of capital for its investments. While over $36.5                     Investing in Small Businesses
billion in small financings have taken place through this program,                    Since 1958
less than $10 billion came from SBA- guarantied funds. 2                                    1958 Through FY2002

Not only does private investor capital provide a larger financing                                 SBA
                                                                                                  SBA
base, but it also ensures that all SBIC fund managers are profit-                                                     Public
                                                                                                 SBIC        $
                                                                                                                      Markets
motivated. As with traditional venture funds, the managers of the                               Program
funds earn incentive fees that are tied to fund profitability (known                  $10 billion
as the “carry”). The fund makes its money on the success of its                                       $          $26.5 billion
investments. Thus, their success is closely aligned with the small                                  SBICs   $         Private
businesses they invest in.                                                                                           Investors
                                                                                      $36.5 billion
For that reason, SBICs, in addition to investing capital, provide                                     $
hands-on involvement in their portfolio companies, including:                                    Small
board participation, corporate governance, strategic planning and                              businesses
marketing, recruitment, financial support, capital-raising, and
company exit support via Initial Public Offerings (“IPOs”) or
sales/mergers.

A 2002 study conducted by Stanford University stated: “Evidence strongly points in one direction: venture
capitalists provide value-added services, help to professionalize the companies they finance, and help their
companies establish themselves in the marketplace.”3 Therefore, small businesses not only receive capital, but
critical expertise to grow their company.

Industry Description. As shown in Exhibit 2,
SBICs form a subset of the overall Venture Capital             Exhibit 2 – FY 1994-2002 Venture Capital
(“VC”) industry that provided over $280 billion in             Financing 4
financing between fiscal years 1994-2002. As
                                                                     Venture Total:                         SBICs:
such, VCs address the funding needs of                               $280.5 Billion                         $23.7 Billion*
entrepreneurial companies that for reasons of size,
assets, and stage of development cannot seek
capital from more traditional sources, such as                                              92%
public markets and banks.
                                                                 *Notes:
Venture capital differs from traditional financing (including lending) in that venture capital typically focuses on
young, high- growth companies; invests equity capital, rather than debt; takes higher risks in exchange for


2
  2002 SBIC Statistical Package, Table 1 – Regular & Specialized SBICs Financing to Small Businesses Reported for Years Ending
March 31, 1960 and Table 36 – Disbursements from 1959 through September 30, 2002.
3
  Hellmann, Thomas and Puri, Manju, On the Fundamental Role of Venture Capital, Federal Reserve Bank of Atlanta Economic
Review, Fourth Quarter 2002, page 22.
4
  Note 1: Total 2002 Venture Capital Financing figure as reported by PriceWaterhouseCoopers (PWC) (www.pwcmoneytree.com),
Full Year and Q4 2002 Results MoneyTree Survey and Historical Trend Data file: National_Aggregate_Data 95Q_02Q4.xls. All
SBIC financings may not have been covered within the PWC survey.
  Note 2: SBIC figures include only SBIC financings with equity features, based on financing/disbursement date. This figure may be
incomplete, as the Investment Division receives reports of financings for a particular fiscal year only after the end of that year.
  Note 3: All SBIC financings may not have been covered within the PWC survey from which the total Venture Capital financings
figure was derived. The Investment Division expects to work to improve SBIC coverage in these statistics for future reports.

                                                                 3
potential higher returns; has a longer investment horizon than other financings; and actively monitors portfolio
companies via board participation, strategic marketing, governance, and capital structure.

How Venture Capital Returns are Generated. A business looking for venture capital typically can expect the
following process:


     Exhibit 3 - Venture Capital Process

         Submit                                                 Execution
                               Due
        Business                             Investment           w/VC               Exit
                            Diligence
          Plan                                                   Support

                1                       2              3                    4               5



   1. Submit Business Plan: The venture fund reviews an entrepreneur’s business plan, and talks to the
      business if it meets the fund’s investment criteria. Most funds concentrate on an industry, geographic
      area, and/or stage of a company (e.g., Start- up/Seed, Early, Expansion, and Later).

   2. Due Diligence: If the venture fund is interested in the prospective investment, it performs due diligence
      on the small business, including looking in great detail at the company’s management team, market,
      products and services, operating history, corporate governance documents, and financial statements.
      This can include a term sheet describing the terms and conditions under which the fund would make an
      investment.

   3. Investment: If at the completion of due diligence the venture fund remains interested, an investment is
      made in the company in exchange for some of its equity and/or debt. The terms of an investment are
      usually based on company performance, which help provide benefits to the small business while
      minimizing risks for the venture fund.

   4. Execution with VC Support: Once a venture fund has invested, it becomes actively involved in the
      company. Venture funds normally do not make their entire investment in a company at once, but in
      “rounds.” As the company meets previously-agreed milestones, further rounds of financing are made
      available, with adjustments in price as the company executes on its plan.

   5. Exit: While venture funds have longer investment horizons than traditional financing sources, they
      clearly expect to “exit” the company (on average, 4-6 years after an initial investment) – since that is
      generally how they make money! Exits are normally performed via mergers, acquisitions, and IPOs. In
      many cases, venture funds will help the company exit through their business networks and experience.




                                                       4
Venture Fund Investment Cycles. Since it                  Exhibit 4 – Typical Venture Capital “J” Curve
can take 4-6 years for a venture fund to exit a               20%



business, investors in the fund must be willing               15%

to wait for their returns. This is why venture
funds typically experience what is known as                   10%




                                                            IRR
the “J” curve (Exhibit 4) in terms of returns to                      5%

the investor. Returns tend to be negative for a
few years at the beginning of a fund’s                                0%
                                                                              1        2          3      4         5         6          7       8         9        10
investment cycle because cash is used for                         -5%
                                                                                                                 Time
investment and management fees, and
investments are carried at cost or occasionally
written down. 5

Exhibit 5 shows the average number of years
                                                           Exhibit 5 – Average Number of Years before
before investors’ capital is returned from a
                                                           Investors’ Capital is Returned from Venture Fund by
venture fund by “vintage year” – the year the
                                                           Vintage Year 6
fund was formed and started to invest. As                                                                    Years to Payback (Distributions > Paid-In Capital)


shown, it took as long as ten years during the               10




early 1980s, but only three years for vintage                     9


                                                                  8

year 1997 funds, before investors saw positive                    7



returns. It is difficult to predict how long it will              6




take the more recent venture funds to return                      5




capital to investors.        For example, as of                   4


                                                                  3


12/2001, the 1998 funds as a group had                            2



distributed 58% of paid-in capital. Therefore,                    1




the payback time could possibly stretch                           0
                                                                      1980   1981   1982   1983   1984   1985    1986    1987    1988    1989    1990    1991     1992   1993   1994   1995   1996   1997




anywhere from 5-10 years for funds in the 1998-
2001 vintage years.




5
  “Structuring a Venture Capital Portfolio: An Investor’s Perspective,” Henry G. Robin, CFA, p. 14 (AIMR Readings in Venture
Capital, 1997).
6
  Data derived from Thomson Financial Venture Economics 2002 Investment Benchmarks Report, Page 46, Figure 3.012, Vintage
Year Results by Fund Age (in Years) After Formation, Cumulative Average Distribution to Paid-In. Payback years were identified as
the year when Cumulative Average Distribution to Paid-In ratio exceeded 1.



                                                                        5
“Time to exit” can depend on the nature
of the company in terms of both its             Exhibit 6 - Venture Fund Vintage Year Average Cumulative
operating history and its position in the       IRRs vs. S&P Index (as of December 2001) 7
                                                                              100.0%                                                                                                                                               1500
industry. But the overall economy and                                                                                                                                                                                              1400

stock market usually drive the outcome.                                                                                                                                         1995 to 1999
                                                                                                                                                                                                                                   1300
                                                                               80.0%                                                                                                                                               1200
                                                                                                                                                                                Avg IRR = 42.7%
The chart to the right (Exhibit 6) shows                                                                                                                                        For 1995 through 1997, payback = 3 yrs             1100
                                                                                                                                                                                                                                   1000
the average fund cumulative internal




                                                   Venture Vintage Year IRR
                                                                               60.0%                                                                                                                                               900

rate of return (“IRR”) as of December                                                                                                                           1990 to 1994                                                       800




                                                                                                                                                                                                                                          S&P 500 Index
                                                                                                                                                                Avg IRR = 21.1%                                                    700
                                                                                                                                       1985 to 1989
2001. Vintage year appears as columns                                          40.0%
                                                                                   1980 to 1984
                                                                                                                                       Avg IRR = 9%
                                                                                                                                                                Payback = 6 yrs
                                                                                                                                                                                                                                   600
                                                                                                                                       Payback = 8 yrs
                                                                                   Avg IRR = 6.8%                                                                                                                                  500
on the left axis, alongside the S&P                                                Payback = 9 yrs
                                                                                                                                                                                                                                   400

Index as a line on the right axis across                                       20.0%                                                                                                                                               300
                                                                                                                                                                                                                                   200
the years 1980-2000. In general, the                                                                                                                                                                                               100
                                                                                0.0%                                                                                                                                               0
IRRs of venture funds follow the                                                                                                                                                                                                   -100




                                                                                     83

                                                                                     84




                                                                                                                                                    95

                                                                                                                                                    96
                                                                                     80

                                                                                     81

                                                                                     82




                                                                                                                                                    88

                                                                                                                                                    89

                                                                                                                                                    90

                                                                                                                                                    91

                                                                                                                                                    92

                                                                                                                                                    93

                                                                                                                                                    94




                                                                                                                                                                                                                  00

                                                                                                                                                                                                                  01

                                                                                                                                                                                                                  02
                                                                                      5

                                                                                                                                              6

                                                                                                                                                     7




                                                                                                                                                     7

                                                                                                                                                                                                            8

                                                                                                                                                                                                                   9
                                                                                   198

                                                                                                                                           198

                                                                                                                                                  198




                                                                                                                                                  199

                                                                                                                                                                                                         199

                                                                                                                                                                                                                199
                                                                                   19

                                                                                   19




                                                                                                                                                  19

                                                                                                                                                  19
                                                                                   19

                                                                                   19

                                                                                   19




                                                                                                                                                  19

                                                                                                                                                  19

                                                                                                                                                  19

                                                                                                                                                  19

                                                                                                                                                  19

                                                                                                                                                  19

                                                                                                                                                  19




                                                                                                                                                                                                                20

                                                                                                                                                                                                                20

                                                                                                                                                                                                                20
growth and decline of the stock market.                                       -20.0%
                                                                                                                                                                                                                                   -200
                                                                                                                                                                                                                                   -300
                                                                                                                                                                                                                                   -400
                                                                                                                                                                                                                                   -500
An example is vintage year 1996, when                                         -40.0%                                                                                                                                               -600

the highest average return preceded the                                                                                                     Venture Vintage Year IRR as of Dec 2001              Index


high S&P index by three years. In
other words, it would appear that the time to invest in venture capital is roughly two to three years prior to a
peak in the market – when company valuations are lower – following the classic “buy low – sell high” theory.

Vintage years 2001 and 2002 cumulative IRR measures are negative, but this might be expected following the
“J” curve. The question is whether the decline in the stock market over the last three years will lengthen the
time before the average cumulative IRR turns positive for vintage year 2001 and 2002 funds.

Exhibit 7 shows that the ideal time for a                                              Exhibit 7 - Venture Exit Activity vs. S&P8
venture capital fund to invest is an estimated                                                                        25000                                                                                                                         1600


two to three years before a market upswing.                                                                                                                                                                                                         1400

Exhibit 7 shows when venture capital exits                                                                            20000

actually occurred, in terms of IPO activity.                                                                                                                                                                                                        1200



Just as there is an optimal time to get in, there
                                                                                         Venture IPO Offerings ($M)




                                                                                                                                                                                                                                                    1000
                                                                                                                      15000




                                                                                                                                                                                                                                                           S&P 500 Index
is an optimal time to get out of an investment.                                                                                                                                            S&P 500 Index

                                                                                                                                                                                                                                                    800

Following the “buy low - sell high” principle,
                                                                                                                      10000
venture funds attempt to time the exit of their                                                                                                                                                                                                     600



portfolio companies at market peaks.                                                                                                                                                                                                                400
                                                                                                                       5000

                                                                                                                                                                                                                                                    200
However, as shown by the chart, venture IPOs
tend to lag the market by about one or two                                                                               0
                                                                                                                              1980 1981 1982 19831984 1985 1986 1987 19881989 1990 1991 1992 1993 1994 1995 19961997 1998 1999 2000 20012002
                                                                                                                                                                                                                                                    0



years. When the S&P peaked in 1999, for                                                                                                                             Venture IPO Offerings ($M)    S&P 500


example, venture IPOs peaked one year later.
It is therefore possible that, following historic
trends, once the current stock market rebounds, venture IPOs may follow one to two years later.


7
  S&P Data derived from Commodity Systems Incorporated via Yahoo.com, using year end historical prices. Venture Vintage Year
IRRs taken from Thomson Financial Venture Economics 2002 Investment Benchmarks Report, Page 39, Figure 3.002, Cumulative
Benchmark Results as of December 31 2001 Overall Sample By Vintage Year.
8
  S&P Data derived from Commodity Systems Incorporated via Yahoo.com, using year end historical prices. Venture IPO data taken
from Thomson Financial Venture Economics 2002 Investment Benchmarks Report, Page 353, Appendix C, U.S. Venture Capital
Statistics.
                                                             6
Management and Oversight of the SBIC Program
In February 1992, an SBIC Investment Advisory Council, composed of members from the venture capital
industry, the National Association of Small Business Investment Companies (NASBIC), and other stakeholders
in the SBIC program, submitted a report to the SBA Administrator regarding the SBIC Program. Because the
government guarantys the funds used in the SBIC program, the SBA holds a fiduciary responsibility to ensure
that SBICs utilize these funds in the best interest of the taxpayer.

Exhibit 8 depicts the typical process for obtaining an SBIC license and the lifecycle of an SBIC as it moves
through the various oversight offices of the Investment Division. As indicated, SBIC Program Development
screens applicants and conducts preliminary evaluations of prospective SBIC venture fund management teams
and their proposals. If they pass initial hurdles, SBIC applicants then face a rigorous licensing process. If they
receive their license, they are transferred to the Office of SBIC Operations. The Offices of SBIC
Administration and SBIC Examinations play key roles during this timeframe. At the end of a fund’s life
(usually ten years), the SBIC either surrenders its license or in some cases is transferred to the Office of
Liquidations. Further detail regarding each step and the related office are described below.



       Exhibit 8 – SBIC Program Lifecycle


                                                        Administration
                                                                                 Surrender
         Program                 Licensing                Operations
        Development
                                                                                Restructurings
                                                        Examinations




SBIC Program Development. One of the recommendations from the 1992 SBIC Program Study was to
“Establish a Marketing/Business Development function reporting to the Associate Administrator for Investment
(AA/I) to promote the SBIC program nationally to potential new sources of private capital and prospective
management teams.” Program Development, under the Office of Chief Ad ministrator Office, performs this
function. This team proactively markets the program to prospective venture fund management teams. In
general, Program Development looks for the following attributes in SBIC candidates:

   •    Private equity investing experienc e and strong “deal flow” of the same type that the proposed fund
        would perform
   •    At least two general partners who have five or more years of “decision-making” experience as a
        principal in a venture capital fund (rather than as an agent such as consultant, investment banker, broker,
        etc.)
   •    Realized track record of superior returns, placing a fund in the upper half of performance for venture
        funds of the same vintage year and style
   •    Managerial, operational or technical experience that can add value at the portfolio company level
   •    Cohesive management team, with complementary skills and history of working together

                                                         7
Candidates going through Program Development typically follow these steps:

   •   Management Assessment Questionnaire (“MAQ”): This comprehensive evaluation form is a series of
       structured questions concerning management’s plans for the prospective SBIC and the detailed
       experience and qualifications of the management team.

   •   Analyst Review and Preliminary Due Diligence: Once the MAQ is submitted, the Investment Division
       assigns a program development specialist to the case. The specialist works with the applicant to clarify
       and analyze the MAQ in detail, especially with regard to the applicant’s strengths and weaknesses, and
       performs initial due diligence.

   •   Preliminary Investment Committee Review: Generally, within one to two months, the assigned staff
       person makes a recommendation to the Investment Committee (composed of senior members of the
       Division) whether to invite the principals to the SBA for a formal interview.

   •   Investment Committee Presentation: If the initial impression and supporting documentation and due
       diligence show that the management team may be qualified for a license, the entire team is invited to an
       interview with approximately 7-15 SBA personnel in attendance. This allows the applicant to expand on
       their strengths and discuss any weaknesses identified through the MAQ.

   •   Assessment: After the interview, the Investment Committee decides whether or not to issue a “go- forth
       letter,” which moves the applicant into an even more rigorous licensing phase. A go-forth letter does
       not mean that the SBA has determined that the applicant qualifies to receive an SBIC license, only that
       they qualify for further consideration and due diligence.

Licensing. Another recommendation of the 1992 SBIC Program Study was, “Establish stringent new licensing
regulations and standards, and allow the SBA to reject applications for licenses when those standards are not
met.” The study noted that as of 1992, “…the SBA hasn’t declined many license applications over the SBIC
program’s 30-year history” and “Had the SBA felt secure in its authority to decline license applications, some
of the SBA’s exposure to loss might have been avoided.” Since licensed SBICs hold the investment decision,
management, and oversight of the SBA-guarantied funds, ensuring that only qualified applicants are licensed is
critical to minimize potential financial losses of the program.

The Office of Licensing and Program Standards ho lds this crucial responsibility:

   •   License Application and Private Capital Commitments: The applicant must raise so-called “regulatory
       capital” in the form of commitments from private sources. Prior to filing its license application, the
       applicant is required to raise a minimum private capital commitment of $5 million for a debenture fund,
       and $10 million for an equity, or so-called “participating securities” fund. A minimum of 30% of this
       capital must come from sources unaffiliated with the fund manageme nt.

   •   Analyst Review: The Office of Licensing assigns a lead analyst to review each application. The analyst
       performs an in-depth review of the application, business plan, financial projections, legal documentation
       and final due diligence on the management team. When the review is complete, the applicant then
       undergoes three levels of approval before actually receiving its license.

   •   Divisional Approval: The lead analyst presents the application to the Investment Division Licensing
       Committee, which generally meets on a monthly basis. This committee is composed of senior managers
       of the Investment Division.

                                                        8
   •   Agency Licensing Approval: If Divisional Licensing approves the application, it is then presented to
       the Agency Licensing Committee, which is composed of certain senior managers of the SBA.

   •   SBA Administrator Final Approval: Finally, if the Agency Licensing Committee approves, the
       application is submitted to the SBA Administrator for final approval. If signed, the applicant receives an
       SBIC license and is transferred to the Office of SBIC Operations.

Operations . The 1992 SBIC Program study noted the importance of continuous monitoring of the SBICs’
portfolios, in terms of “clear and timely analysis of financial statements,” “…balance sheet, cash flow and
income statement analysis with particular emphasis on key indicators of potential problems in SBICs, and ” ..
spotting potential problems early.” The study’s emphasis was to maintain a relationship such that potential
problems could be identified early to give time for SBIC management and the Investment Division to work
towards possible solutions. The Office of SBIC Operations addresses these concerns through its oversight.

The Director of SBIC Operations is responsible for regulatory, financial oversight, and leverage (funding) to the
SBICs. Each licensee is assigned an operations analyst who serves as their primary contact. The operation
analyst is responsible for the analysis of all financial statements, examinations, and investigation reports
covering the operations and practices of individual SBICs. In addition, the analyst evaluates the financial
stability and reliability of the SBICs, and their compliance with the Small Business Investment Act of 1958, as
amended, and other related rules and regulations.

Administration. The 1992 SBIC Program study stressed the importance of data collection and analysis,
suggesting “simple off-the-shelf financial reporting models and analytical software” and “quarterly financial
reporting… in a format that most closely resembles a venture capital fund’s normal quarterly reporting, with
additional data provided annually to the Agency on companies backed, and jobs, wealth, and taxes created.”
Data Management provides this responsibility as part of the Office of Chief Administrative Officer. In addition,
Funding Administration as part of this office directs, administers, and coordinates the periodic pooling and
funding of both SBIC debentures and participating securities for the program.

Examinations . The 1992 SBIC Program Study also recommended, “The examination function provided in
Section 310 of the Small Business Investment Act should be returned to the Investment Division to assure
control over the frequency, scope, and performance of compliance exams.” The intent of this recommendation
was to put the responsibility back in the program office directly responsible for administering the program.

The Office of SBIC Examinations plans, directs and coordinates the Agency's program for examining SBICs
that operate under the provisions of the Small Business Investment Act of 1958, as amended. Primary goals of
examinations include:

   •   Determining whether licensees are complying with the Small Business Investment Act and implemented
       regulations;
   •   Assessing the financial condition of licensees and SBA's financial vulnerability; and
   •   Ensuring the accuracy of information that licensees submit to SBA.

The Office of SBIC Examinations is headed by a Director in the Washington headquarters, and supported by 29
examiners in six field offices. Examiners independently gather and report factual information to the Office of
SBIC Operations, so that the Office of SBIC Operations can monitor and regulate the activities of the licensees.

Liquidations . The Office of SBIC Operations proactively monitors the SBICs to determine as soon as possible
any possible problems in the portfolio. If severity of problems warrants action, the operations analyst
recommends transfer of the SBIC into “Restricted Operations” mode (for participating securities SBICs). If the
                                                       9
severity of the fund’s condition worsens, the Office of SBIC Operations may recommend transfer of the SBIC
to the Office of SBIC Liquidations. For debenture SBICs, the process is less complex: when an SBIC defaults
on its interest payments, it is transferred directly to the Office of Liquidations. The difference in procedures
between Participating Securities SBICs and Debenture SBICs is based on the program’s structure to allow a
Participating Securities fund sufficient time to realize exits on its investments. The procedures also reflect
differences in the type of investing by Participating Securities SBICs and Debenture SBICs.

The Office of SBIC Liquidations develops, recommends, and implements policies and procedures for the
administration and liquidation of the SBICs transferred to "restructuring" status. The office's primary goal is to
maximize the net recoveries in an appropriate amount of time on these SBICs, while recognizing the interests of
other parties affected (i.e., small business concerns funded by SBICs) and furthering program integrity. The
Office of SBIC Liquidation manages, oversees, and takes necessary action on behalf of SBA, both as creditor
and as Receiver.


Surrender. The Office of SBIC Liq uidations is neither the typical nor preferred way for an SBIC to exit the
program. Typically, the SBIC requests approval to surrender its license, accompanied by an offer of immediate
repayment of all outstanding leverage (including any prepayment penalties thereon), or by a plan satisfactory to
the SBA for the orderly liquidation of the Licensee. An SBIC may not surrender its license without SBA's prior
written approval.

BUSINESS ACTIVITIES OF THE INVESTMENT DIVISION SINCE THE END OF THE OIG
REPORT PERIOD (SEPTEMBER 2002)

In a memorandum dated December 10, 2002, the Investment Division set forth its FY 03 business plan,
including (a) Division-wide performance goals and (b) key policy and program initiatives. Recently, in a
memorandum dated March 24, 2003, the business plan went through a six- month review (since September 30,
2002) with respect to:

   1) Execution of Administration Policy. The Investment Division’s business plan puts into action several
      elements of the President’s Management Agenda, the Administration’s Agenda for Small Business, and
      the SBA’s Strategic Plan.

   2) Achievement of Performance Objectives. The business plan shows overall that the Investment Division
      is on track to meet or exceed its performance objectives with respect to SBIC licensing, financings,
      examinations, and restructurings.

   3) Progress in Completing Priority Projects. The Investment Division’s policy and program initiatives
      have reached significant milestones, and the business plan itself has been refined, adding more
      specificity to ensure successful completion of goals.

The Investment Division’s business plan is the product of extensive management and staff discussions within
the SBA. It is the result of ongoing feedback from Congress, the White House, OMB, the venture capital
industry, private investors, analysts, and other stakeholders in the SBIC program. With guiding principles,
performance goals, and program priorities firmly in place, the Investment Division is continually refining and
reassessing its business plan to ensure that it is realistic and producing measurable results.

SBIC PORTFOLIO RISK MANAGEMENT INITIATIVES DURING FY 03

The Investment Division’s policy and program priorities are focused on initiatives to:
                                                        10
   a) Clarify and quantify the potential risks and rewards of taxpayers’ “participation” in the SBIC program;
      and

   b) Strengthen our portfolio risk assessment and management strategy, so as to preserve the program’s self-
      financing capability over time frames that are consistent with venture capital investing.

Fund Performance Data/Annual Report. Thousands of portfolio companies depend on SBIC support to
survive and grow in the current economic environment. To help guide our policy, we are developing a better
understanding of the SBIC portfolio’s performance dynamics through the publication of an Annual Report. The
Annual Report is a starting point for better assessing SBIC portfolio performance, managing risk, fostering
accountability, and demonstrating program results. In this report we will begin to clarify and quantify the
potential risks and rewards of taxpayers’ “participation” in the SBIC program.

       As this report will show, SBICs have helped generate billions of dollars in corporate revenues
       and income taxes, while creating millions of jobs and countless improvements to our health,
       safety, and way of life. That record of accomplishment will continue to pay America many
       times over for the costs of running the program.

Patterned after comparable public company reports, the SBIC Program’s annual report will include:
                • Highlights from the year/Anticipated Changes
                • Business Description
                      o Venture Capital
                             Ø Description of Venture Capital Industry and SBA's role
                             Ø Explanation of venture capital process and investment cycle
                      o SBIC Role
                             Ø SBIC Program Overview
                             Ø SBICs: Spanning the Gap
                             Ø SBA Leverage Benefits
                             Ø SBIC Program Description
                • Impacts of Venture Capital and the SBIC Program to U.S.
                • Financials for the SBIC Program
                • Selected Consolidated SBIC Financials
                • Key Metrics
                • Glossary of Terms

SBIC Licensing. While not the focus of the OIG’s report, licensing new SBICs is the most critical element of
our risk management strategy. Important changes in our licensing operations have recently been made –
reducing the risk of financial losses both to SBA and private investors. Specific program and managerial
improvements to the SBIC licensing process include:

       •   Licensing standards have been tightened. The Investment Division has a clear, consistent approach
           toward licensing SBIC teams with above-average track records of managing venture capital funds.
       •   New business development and licensing staff have been recruited. The results are a higher degree
           of customer service, a more rigorous, fact-based approach to initial due diligence, a high level of
           coordination and teamwork, and clarity and consistency in licensing standards and decision- making.
       •   Licensing staff have been organized into teams. This has produced more effective communication,
           both internally and with prospective SBIC licensees, and more efficient processing of cases.


                                                      11
       •   Inactive or sub-standard cases are expeditiously resolved. To ensure quality control and protect the
           taxpayer against risk, our goal is to resolve outstanding cases – not just license new funds. While the
           number of new licenses issued is important, the work that goes into denials or dismissals constitutes
           a highly valuable contribution to program risk management.

SBIC Examinations. The Office of SBIC Examinations performed a record 326 annual examinations in FY
02. At the same time, the number of reports with compliance red flags has declined. Continuing an ongoing
trend, there have been fewer improper financings, inappropriate distributions, less conflicts of interest and
portfolio valuations that did not follow our guidelines.

SBIC Portfolio Risk Assessment Model. With the assistance of private industry, the Investment Division is
designing and testing a more robust portfolio risk rating model to replace the current system of monitoring
funds under financial strain. The goals of this new rating system are to:

       •   Provide SBA with more of an “early warning system” for individual SBIC oversight;
       •   Provide clear, standardized procedures for assessing risk at individual SBIC level;
       •   Provide SBA with more information regarding the scope and timing of total prospective portfolio
           losses, including where they fall in the range of SBIC program assumptions;
       •   Promote best fund management practices and conservative portfolio valuations

New Portfolio Risk Assessment and Valuation Branch. In conj unction with the development of the risk
rating model, the Investment Division has created a specific branch dedicated to the creation and maintenance
of the risk rating model (effective January 6, 2003). The Portfolio Risk Assessment and Valuation Branch will
also provide support services to Division-wide activities related to SBIC portfolio valuations, when and as
needed.

Reorganization of the Office of SBIC Operations . The Office of SBIC Operations is undergoing major
change. We are dedicating more internal resources to risk management, better defining portfolio company
value, and building more teamwork and consistency into our oversight and decision- making. To promote
consistency and clarity in SBIC financial and regulatory oversight, three Areas ha ve been reorganized, with two
Areas now responsible for the Participating Securities SBIC “portfolio,” and one Area responsible for the
Debenture SBIC and non- leveraged SBIC portfolios. Additional financial analysts, with direct venture capital,
valuation, and related expertise, have been recruited to support the expanding caseload in Operations and to
augment staff analytical capabilities.

SBIC Liquidations/Restructurings. In FY 02, the Investment Division obtained $18.8 million in liquidation
recoveries and closed 16 liquidation cases and 5 SBA-operated receivership cases. In FY 03, our performance
targets call for more aggressive resolution of cases and the creation of better incentives for management of
SBICs in receiverships, so that we expect to ha ve results of:

           a) An increase of at least 25% in the amount of total tax dollars recovered over the previous fiscal
              year
           b) A cumulative AUPRP (recovery rate) on post-credit reform transfers for non-participating
              securities SBICs of at least 60%
           c) Resolve 25 open asset accounts as of FYE 02 (or 30% of all open asset accounts)
           d) Close 10 SBA-operated receiverships, a 100% increase from the prior fiscal year.

SPECIFIC ISSUES RAISED IN THE OIG REPORT


                                                       12
Managing Risk in Debenture SBICs versus Participating Securities SBICs. The OIG’s report points to
potential weaknesses in procedures used to identify and manage “impaired” SBICs. As we have outlined above,
the Investment Division is executing a plan to strengthen its assessment and management of financial and
regulatory risks inherent in the program. Nonetheless, with respect to the OIG’s focus on the participating
securities program, it is essential to recognize the distinctions between the two main “products” offered by the
SBIC program: debenture SBICs and participating securities SBICs. Each type of fund has significantly
different prospective financial performance and distinct investment models.

The portfolio of a debenture SBIC can usually be assessed with more certainty than the portfolio of a
participating securities SBIC, since debenture SBICs generally make subordinated or mezzanine debt
investments (with a current pay element that includes some potential equity appreciation). Debenture funds
may often generate early positive cash flow and are less susceptible to the “J” curve phenomenon described
above.

In contrast, the participating securities program is designed to be a private equity/venture capital program,
where most – if not all – investments lack a current pay (debt) component. Its equity-only design entails both
greater risk and, potentially, greater reward to investors than the debenture program. Moreover, participating
securities SBICs typically make equity investments at an earlier stage in the life of the portfolio company.

As mentioned above, it is fully expected that a private equity fund will quickly lose a portion of its value during
the initial years of investing. A fund may make approximately 15-20 investments over an initial five-year
period, with the fund managers seeking to add value to these investments midway through the fund’s life. Some
losses may occur early in the fund’s life, and the fund should realize the most significant portion of its return
toward the end of the fund’s life. In other words, all equity-type venture capital funds – including participating
securities SBICs – are expected to have a significant level of “impairment,” particularly in the early years of a
fund’s existence.

Here is an example of how impairment can occur in a healthy situation: An SBIC charges a management fee.
This fee generally amounts to 2.5% of the sum of private capital, plus an assumed two tiers of SBA leverage –
roughly 7.5% of private capital. Capital impairment is based upon private capital, so even assuming that a fund
has no other expenses and incurs no portfolio losses, it will unavoidably have capital impairment of 7.5% at the
conclusion of the first year. After five years of being in business, capital impairment based solely upon
payment of the management fee will exceed 37%.

Participating Securities SBICs will also have organizational and other expenses and, as explained above, are
likely to have incurred portfolio losses – losses that are projected to occur early in the fund’s life and do not
generate any income. Therefore, based upon the venture capital model – and barring any unexpected early
winners – a Participating Securities SBIC will start its life with a significant level of capital impairment. As the
SBIC program is currently structured, that same SBIC has little room to make mistakes going forward without
triggering impairment thresholds.

If a fund cannot implement its investment plan, it cannot serve small businesses, nor can it provide SBA with a
share of the returns that can accrue to a venture capital fund in its later years. An equity fund must make the
full complement of investments in order to enhance the probability of having 2-3 “winners” that make the fund
profitable overall. Failure to do so statistically diminishes the probability of success for the fund.

Limited History of Participating Securities SBIC Program. The participating securities program was
developed in the early 1990s, with the first participating securities leverage not issued until 1995. As funds are
raised with ten- year securities, the first maturity of a participating securities instrument is not until 2005.

                                                         13
The majority of the outstanding SBA participating securities leverage was not issued until the late 1990s and
beyond. Given the short amount of program history, the lack of even a single cohort year reaching maturity,
and the lack of sufficient business cycles over the short program history, the conclusions reached by the OIG
were based upon an abbreviated time horizon.

The design of the program from a subsidy rate perspective reflects the long-term cyclical nature of private
equity investing. Under the Federal Credit Reform Act, the program is expected to cover (through
appropriations and fees) the presumed costs of the government guaranty. In the early years of the participating
securities program, revenues substantially exceeded program credit costs.

Taking the above factors into account, the OIG raises substantive oversight issues that we agree need to be
addressed. If there is any difference with respect to the OIG’s focus and the SBA’s plan of action, it may be in
the SBA’s treatment of the SBIC participating securities program as a private equity investment program, not a
credit program. In managing a private equity portfolio, we accept the unique nature of private equity investing
and the venture fund life cycle. SBA is tracking funds by “vintage year” (1985, 1986, 1987, etc.) and type/stage
of investing (seed, early stage, late, etc.). We expect the returns associated with these different classes of funds
to vary. For example, SBICs that were licensed in the 1999-2000 period generally made investments at
comparatively high valuations. As a class, these funds will likely experience lower average returns than might
be expected from comparable funds investing in the current market environment.

Creation of Robust Risk Assessment Tools. Concurrent with and independent of OIG’s report, the
Investment Division has sought to strengthen its assessment and management of program risk. For example, we
concluded that the previously used “Watch List” was not a comprehensive enough tool to anticipate and help
resolve issues affecting SBICs under financial strain. In 2001, the Investment Division began an effort to
enhance its risk evaluation efforts. A series of meetings were held among Investment Division personnel, staff
in the Office of General Counsel (OGC) and the Senior Counsel to the Administrator. The result of this effort
was the Risk Assessment Profile (RAP). The RAP was an effort to consider factors in addition to capital
impairment in evaluating a SBIC’s risk. As such, it was a more comprehensive tool than the Watch List but still
inadequate to address the more complex questions facing participating securities SBICs. The enhanced risk
rating system described on page 15 of this report further strengthens the “early warning” necessary to handle
troubled SBICs.

Policy Options Concerning Restricted Operations and Transfer to Liquidation. The Investment Division,
with the assistance of OGC, has evaluated its options relative to its policy regarding (a) Restricted Operations,
(b) transfers to the Office of SBIC Liquidation; and (c) treatment of prioritized payments.

[                  FOIA Ex. 5                                                                    ] the Investment
Division could transfer SBICs already in Restricted Operations to the Office of SBIC Liquidation, thereby
terminating payment of the quarterly interest payments due on participating securities (prioritized payments). [
FOIA Ex. 5       ]

We feel it is important that the OIG be aware of certain key issues regarding placement of an SBIC into
Restricted Operations and transfer of an SBIC to the Office of SBIC Liquidation. First, SBA’s authority to
make either decision currently may be based on a determination that the SBIC is capitally impaired. However,
as explained above, impairment is a natural by-product of equity investing.

What this means is that SBA, before making a decision, must determine that the proposed transfer is based upon
a permanent diminution in the value of the SBIC’s portfolio companies – and not the typical progression of an
equity fund through the “J” curve. A decision based solely upon a certain level of capital impairment, without
the underlying portfolio analysis, would be inappropriate and potentially increase SBA’s risk of loss.
                                                        14
In its report, the OIG suggests that capital impairment should remain the sole criteria for decisions regarding
transfers to liquidation. However, the challenge we share as overseers of the SBIC program does not lend itself
to such an easy solution.

Although the OIG report properly notes some of the difficulties the Investment Division is experiencing with a
relatively new program, the report does not recognize the inherent risk associated with equity investing and the
time needed to allow for a portfolio to develop and increase in value.

We now refer to the specific issues raised by the OIG:

Finding: SBA’s Oversight of the SBIC Program did not Limit Financial Loss to the SBIC Program

We have outlined above how SBA’s licensing and oversight of the SBIC program manages risk of ultimate loss,
and how the Investment Division is taking steps to further strengthen its risk management tools and decision
making. The Finding above is narrowly focused on certain procedural steps that OIG suggests should be
revised in order to “limit financial loss.” However, the Finding does not take into account:

    (a) the unique equity-type structure of the SBIC program and the expectation that the participating securities
        will be treated as patient capital
    (b) the effect of a transfer to liquidation on portfolio company value and thus the effect on broader program
        goals to support small business; and
    (c) other factors that should weigh in the funds’ favor (e.g., distributions to SBA, conservative valuation
        policies, reserves of co-investors that may support portfolio companies, and regulatory compliance).

The expectation is that funding of prioritized payments will continue – unless there is a significant and
permanent diminution of portfolio value that makes recovery of the SBA’s financial exposure unlikely, based
on thorough analysis.

The OIG’s Finding does not take into account the effect of a transfer to liquidation on portfolio value. Except
perhaps in rare instances, transfers do not add value to SBIC portfolio companies. Moreover, the transfer
decision by itself imposes no additional restrictions on the activities of the SBIC that are not already in place
under Restricted Operations.

As a result of its own analysis, as well as input provided by the venture capital industry, the Investment
Division believes that a number of factors must be addressed in making any transfer decision. These factors
include the level of impairment, the age of the fund, its distribution history, the type of investing and other
factors. For example, a fund with a high level of impairment but few investments (i.e., not fully invested) and
leverage is less risky than a fund with the same level of impairment but with more leverage and fully invested.

With respect to forbearance in Section 107.1820(b)(1)(i), the Investment Division will request an opinion from
OGC as to its proper interpretation. Heretofore, we have operated under the assumption that we are precluded
from imposing the remedies available for Extreme Capital Impairment for a period of eight years. As such, we
respectfully disagree with the OIG’s statements relative to forbearance on pages 8-9 of its draft report. Unless
advised otherwise by OGC, as long as the SBIC is within its first eight years, we understand that SBA has no
right to seek a receivership or otherwise to replace SBIC management for capital impairment.

We attribute these restrictions in part to the design of the participating securities as patient capital.


                                                           15
The concept of forbearance in Section 107.1850 means that an SBIC does not have a condition of capital
impairment for the first four years (five years in certain instances) from issuance of participating securities
leverage unless its impairment level is 85% or more, regardless of the levels set in 107.1830. As such, the
ability to place a SBIC into Restricted Operations (107.1820 (e)) and the resultant remedies (107.1820 (f)) are
only ava ilable if the SBIC reaches the level of impairment set forth in 107.1830, as modified by 107.1850.

The OIG cites procedural issues requiring clarification and/or potential modification (e.g., in certain instances,
supporting documentation is not readily apparent). We wholeheartedly agree with these comments and are
taking steps to address the documentation issues. Once we execute our FY 03 business plan, we will turn to the
resource- intensive yet important task of preparing new SOPs for the Division. Our preference is to take a
comprehensive – rather than piece- meal – approach to revising the SOP for Operations (SOP 10 06) and
addressing more clearly the financial issues related to SBICs.

We respectfully refer the OIG to certain procedural steps tha t do exist and may have been overlooked. For
example, the OIG states that our analysis failed to include recommendations relative to certain SBICs.
Recommendations for transfers are documented on SBA Form 327. This important decision as well as the
decision to place an SBIC into Restricted Operations is only taken after exhaustive analysis of the SBIC and
meetings both internally and with the affected SBIC.

The OIG report states that support for the forbearance period is not provided through documentation. That is
true, and we will take steps to correct it. It should be noted, however, that the forbearance periods (and capital
impairment) were determined only after publication of proposed regulations and a comment period. The
concept of forbearance is one that we believe is clearly supported by the model of private equity investing. That
model is premised upon the need to grow the value of venture investments over time, with the understanding
that values will fluctuate. The statutory framework of the participating securities program places the SBA in the
role of providing patient capital, while regulating the program and protecting the SBA’s investment at the same
time.

Recommendations

1.A. The Investment Division maintains that the concept of forbearance is inherent to the structure of a private
equity investing program. We refer the OIG to the legislative and regulatory history for the necessary
documentation. The regulations were adopted only after publication of proposed regulations and review of the
subsequent comments.

1.B. The Investment Division will request the proposed opinion from the OGC.

1.C. The Investment Division generally concurs with this Recommendation, although we take exception to the
comments regarding consistency. A draft SOP had previously been prepared, but it will need to be revised to
reflect recent developments and initiatives within the Investment Division. We expect to begin the process of
revising SOPs before the end of FY 03.

1.D. Please see comments on Recommendation 1.C. The new risk assessment model will incorporate the
factors believed relevant in determining the financial condition of an SBIC and thus assisting in an appropriate
course of action. It is important to note that the forbearance regulations do not preclude the imposition of
Restricted Operations and its remedies. The forbearance regulations applicable to Restricted Operations deal
with the levels of impairment that need to be reached before a SBIC can be placed into Restricted Operations.

In conclusion, let us emphasize that, regardless of the economic environment, we take our fiduciary
responsibilities to the U.S. taxpayer very seriously. We are executing our plan to protect the government against
                                                        16
    fraud or excessive financial risk in any individual fund. We have the benefit of hindsight to see that many
    venture capital investments should not have been made at such high valuations during the 1999-2000 peak of the
    market. As such, we are taking necessary action to preserve the public’s capital invested in funds with little or
    no resources available to invest in small business.

    Our job is to manage the program in a way that balances the risks of long-term venture investing with the
    enormous potential rewards to customers and communities across America. We hope this report presents to you
    that vision.

    From: Haskins, Harry E.
    Sent: Tuesday, May 27, 2003 10:37 AM
    To: Hudson, James W.; Cole, Robin O. (O'Neal)
    Subject: FW: Response to SBIC Oversight Audit Report
             In our response to Recommendation 1A, the Investment Division referred the Office of the Inspector General to
    the legislative and regulatory history for documentation of the forbearance periods and the related percentages. As
    indicated in that response, the Investment Division believes the concept of forbearance is integral to venture capital
    investing. The forbearance period and the percentages were adopted after an extensive public comment period. The
    Investment Division is always open to suggestions on improving the program. However, changes to this concept will
    require a substantial investment of time and resources and we are not prepared to recommend specific changes at this
    time.
             With respect to Recommendation 1C, the Investment Division expects the SOP to address the issues raised in
    your Recommendation as we believe we are currently addressing these concerns for the most part. However, the SOP is
    expected to provide a more detailed explanation of these requirements.
             With respect to Recommendation 1D, the Investment Division believes the regulations address the levels of
    impairment that allow for imposition of Restricted Operations. These can be referenced in the SOP. The regulations do
    not require the placement of an SBIC into Restricted Operations even if the SBIC meets the threshold level spelled out in
    the regulations. That is a discretionary action on the part of the Agency. The decision is made only after the
    consideration of a multitude of factors, which are spelled out in the checklist used by analysts. The question of how long a
    SBIC should remain in Restricted Operations is a complicated one, particularly without any context, as it would be
    dependent upon the financial condition of the SBIC and the trends under which it has been operating. The SOP will
    provide as detailed guidance as possible given the subject. However, the SOP will not be a substitute for the detailed,
    comprehensive analysis that an analyst would provide. Similarly, the SOP will outline the remedies that the regulations
    provide. However, the SOP cannot confer new or additional remedies than the ones permitted by statute or regulation.
    Finally, we do not believe that the forbearance regulations generally preclude the imposition of Restricted Operations as
    stated in your report. Forbearance mentioned in 107.1850 does not preclude the imposition of Restricted Operations
    (except as noted below), it raises the threshold level of capital impairment before a SBIC can be considered capitally
    impaired for Restricted Operations purposes. In 107.1850 (c) the SBIC is allowed additional time to not be considered
    capitally impaired if it provides additional collateral for the leverage provided by the Agency.

    -----Original Message-----
    From: Hudson, James W.
    Sent: Friday, May 09, 2003 9:10 AM
    To: Pierson, Jeffrey D.; Haskins, Harry E.
    Cc: Cole, Robin O. (O'Neal)
    Subject: Response to SBIC Oversight Audit Report

    Good morning gentlemen.
       I am trying to synopsize your comments into the audit report and I need clarification for some of the responses. Please
    respond to the following questions as soon as possible.
• for recommendation 1A, your response states that you will provide support for the forbearance periods but it does not
    specifically say you will provide support for the impairment percentages. Do you intend to provide support for the
    impairment percentages or is it your position that support is not needed?
• for recommendations 1C and 1D your response states that you will be revising SOP 10 06, but the response does not state
    whether you agree that the points listed in the recommendations will be included in the revision. We need to
    know if these points will be included in the revision. If only some of the points will be included, we need to know which
    ones, and why the others will not be included.



                                                                 17
                                                                                                                                  APPENDIX B

                                                 REPORT DISTRIBUTION


Recipient                                                                                              No. of Copies

Associate Deputy Administrator for Capital Access .......................................................1

Associate Administrator for Field Operations .................................................................1

Associate Administrator for Financial Assistance ...........................................................1

Financial Administrative Staff .........................................................................................1
 Attention: Jeff Brown

General Counsel...............................................................................................................3

General Accounting Office ..............................................................................................1




                                                                          18
